                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                   AUDIT OF
CORPORATION FOR NATIONAL & COMMUNITY SERVICE
             GRANTS AWARDED TO
  FAMILY SERVICES OF CENTRAL MASSACHUSETTS

                   OIG REPORT 14-05




                        Prepared by:

                  Castro & Company, LLC
                 1711 King Street, Suite C
                 Alexandria, Virginia 22314


This report was issued to Corporation management on December 11, 2013.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than June 11, 2014, and complete its corrective
actions by December 11, 2014. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                 I
                                     Office of Inspector General




                                        December 11, 2013


TO:           Stephen Pitcher
              Interim Executive Director, Family Services of Central Massachusetts

              Erwin Tan
              Director, Senior Corps

              Rocco Gaudio
              Deputy Chief Financial Officer for Grants and FFMC

              Sherry McClintock
              Director, Massachusetts State Program Office

                                  : .1-+~J1JJ
                                    . ~\_       ~
                                     ~al
FROM :        Stuart Axenfeld
              Assistant Inspector       for udi

SUBJECT:      Office of Inspector General (OIG) Final Report 14-05: Audit of Corporation for
              National and Community Service Grants Awarded to Family Services of Central
              Massachusetts


Attached is the OIG Final Report 14-05: Audit of Corporation for National and Community
Service Grants Awarded to Family Services of Central Massachusetts. The audit was
conducted by Castro & Company, LLC in accordance with standards established by the
Government Auditing Standards, issued by the Comptroller General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings and
recommendations in this report is due by June 11, 2014. Notice of final action is due by
December 11, 2014.

While the Corporation's state office conducted a monitoring visit in May 2012 and noted various
compliance related issues, including lack of staff background checks, inadequate supporting
documentation in volunteer files, and lack of signed Memorandum of Understanding, its
monitoring visit focused mostly on programmatic aspects. No financial reviews were performed
as part of the Corporation's state office monitoring. Based on the financial related findings
reported in the draft report, we have an additional recommendation that the Corporation perform
a comprehensive financial or fiscal review of the grantee to address the findings in the draft
report.




                   1201 New York Avenue, NW * Suite 830 * Washington, DC 20525
                      202-606-9390 * Hotline: 800-452-8210 * www.cncsoig.gov
If you have questions pertaining to this report, please contact Stuart Axenfeld at (202) 606-9360
or S.Axenfeld@cncsoig.gov; or Thomas Chin, Audit Manager, at (202) 606-9362 or
T.Chin@cncsoig.gov.


Attachment

cc:   David Rebich, Chief Financial Officer
      Angela Roberts, Associate Director, Senior Corps
      Margaret Walter, Grants Management Specialist
      Claire Moreno, Audit Liaison, Office of Grants Management
      Karen Gandolfo, Audit Resolution Specialist, Office of Grants Management
      Thomas Castro, Partner, Castro & Company, LLC
                                 OFFICE OF INSPECTOR GENERAL
                                            AUDIT OF
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                          FAMILY SERVICES OF CENTRAL MASSACHUSETTS

                                                      TABLE OF CONTENTS




Executive Summary ................................................................................................................ 1

Consolidated Schedule of Claimed and Questioned Costs .................................................... 2

Introduction ............................................................................................................................. 3

Findings .................................................................................................................................. 3

Objectives and Scope ........................................................................................................... 26

Background ........................................................................................................................... 26

Exit Conference .................................................................................................................... 27




Appendices

Appendix A – Schedule of Questioned Costs – SCP Grant 09SCAMA001

Appendix B – Schedule of Questioned Costs – SCP Grant 12SCAMA001

Appendix C – Schedule of Questioned Costs – RSVP Grant 07SRAMA004

Appendix D – Schedule of Questioned Costs – RSVP Grant 10SRAMA003

Appendix E - Family Services of Central Massachusetts Response to Draft Report

Appendix F – Corporation for National and Community Service Response to Draft Report




                                                                        i
                                                                          
 
                                   EXECUTIVE SUMMARY

More than $1.7 million in Federal costs and nearly $560,000 in match costs claimed by Family
Services of Central Massachusetts (FSCM) under four Senior Corps grants during 2009-2013
were unsubstantiated and/or incurred improperly, in violation of applicable laws, regulations and
grant provisions. These overcharges represent more than 71 percent of the Federal costs
charged against these four grants, reflecting fundamental weaknesses in the organization’s
internal controls. The audit revealed deficient financial management and ineffective volunteer
station monitoring by FSCM, including:

       Inconsistencies between FSCM’s internal records (general ledger) and its periodic
        financial reports to the Federal government
       Lack of supporting documentation and/or proper approval of claimed costs
       Charges for volunteer travel and meals that were not substantiated
       Failure to ensure income-eligibility for means-tested benefits, as well as other missing
        eligibility documentation, including background checks and volunteers’ written
        assignment plans
       Lack of formal processes for monitoring its volunteer stations

We note that FSCM’s financial and accounting staff appear to be unfamiliar with basic grant
accounting requirements and continue to operate under certain noncompliant legacy policies
that they do not understand and cannot explain. The grantee’s management has not fulfilled its
supervisory obligation to ensure that its personnel are adequately trained and their work
reviewed for adequacy.

To address the severity of these findings, we recommend that the Corporation withhold
additional drawdowns and require supporting documentation prior to any further grant
disbursements to FSCM. We also recommend that FSCM improve its grant accounting
operations and the related internal controls, by implementing risk-based monitoring plans for
volunteer stations, sending accounting personnel to fiscal training and strengthening
background checks and volunteers’ written assignment plans.

The following table summarizes FSCM’s grant awards, the costs claimed and the questioned
costs identified by the audit.




                                               1
 
                    CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                                                                                   Total        Total       Questioned Costs
                                                                  Audit
                   Grant                                                           Grant        Costs       Federal     Match      Appendix1
                                                                  Period
                                                                                  Funding      Claimed

    Senior Companion Program                                   04/01/2009 to
                                                                                 $1,338,833    $942,572     $756,036    $235,061      A
       Grant 09SCAMA001                                         03/31/2012

    Senior Companion Program                                   04/01/2012 to
                                                                                   328,609      268,065      213,725      60,257      B
       Grant 12SCAMA001                                         03/31/2013
Retired and Senior Volunteer                                   07/01/2009 to
                                                                                   907,240      401,074      231,798      83,891      C
Program Grant 07SRAMA004                                        06/30/2010
Retired and Senior Volunteer                                   07/01/2010 to                                                          D
                                                                                   894,232      826,527      536,895     178,362
Program Grant 10SRAMA003                                        03/31/2013
                                                                        Totals   $3,468,914   $2,438,238   $1,738,454   $557,571

                                                                           TOTAL QUESTIONED COSTS               $2,296,025




Overall, the grantee’s financial management practices were inadequate to manage Federal
funds. The grantee could not provide the necessary documentation to support the majority of
the match costs that it claimed. Moreover, it did not properly conduct or document the
mandatory background checks for all employees working on the grants. Documentation was
also lacking for volunteer meals, travel, salaries and fringe benefits and other direct costs.

This audit was conducted at the request of the Corporation for National and Community Service
(Corporation). The Corporation’s Office of Inspector General (OIG) engaged Castro &
Company, LLC (Castro) to audit the costs incurred by FSCM under grants from the Senior
Companion Program (SCP) and Retired and Senior Volunteer Program (RSVP) during a four-
year period, in order to determine whether Corporation grants to FSCM were administered
according to grant terms and complied with all applicable Federal laws and regulations.

The audit procedures were conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. The objectives of the audit were to
determine whether Corporation-funded Federal assistance provided to FSCM was expended in
accordance with grant terms and provisions and laws and regulations, and to report upon such
compliance, controls, and questioned costs that may result from performing these audit
procedures. The procedures included obtaining an understanding of FSCM and its policies,
procedures, and grants. They also included reviewing documents at FSCM related to volunteer
eligibility, claimed costs, matching costs, and compliance with laws, regulations, and the terms
of grant agreements.




                                                            
1
    Separate schedules detailing the questioned costs are presented in Appendices A through D.


                                                                                  2
 
                                                               INTRODUCTION

Family Services Organization of Worcester, Inc., doing business as FSCM, a private non-profit
organization, is located in Worcester, Massachusetts. The organization has been serving the
Central Massachusetts community since 1889 and was incorporated in 1903. Its mission is to
aid individuals and families through life transitions and to serve children and adults by providing
counseling, support, guidance, and related services in response to community needs. FSCM
received its first Senior Corps grant in 2006, and its activities are funded through the
Corporation’s Senior Companion Program (SCP) and its Retired Senior Volunteer Program
(RSVP).

SCP grants support programs through which volunteers age 55 and older provide supportive,
individualized services to help adults with special needs maintain their dignity and
independence. A modest stipend of $2.65 per hour is available to volunteers whose incomes
fall below a predetermined threshold pegged to the poverty level. During the audit period,
approximately 65 SCP volunteers served at FSCM each year.

RSVP grants support programs through which volunteers age 55 and older provide a broad
range of services to meet community needs. Examples include delivering meals to homebound
seniors, conducting school safety patrols, providing supportive services at disaster relief sites,
tutoring children and assisting at food banks. RSVP does not provide financial stipends to
volunteers. During the audit period, approximately 519 RSVP volunteers served annually at
FSCM.

                                                                 FINDINGS

Our audit uncovered numerous violations of applicable grant terms, rules and regulations, many
of which resulted in overcharges. Our findings fall into seven categories:

             Finding No. 1 – FSCM’s Financial Management Reflects Pervasive Violations of Federal
              Grant Management Requirements

             Finding No. 2 – FSCM Failed to Ensure that Volunteers Met Eligibility Requirements,
              Including for the Receipt of Stipends

             Finding No. 3 – Required Background Checks Were Not Conducted or Documented for
              FSCM Staff

             Finding No. 4 – Disallowance of the Direct Costs Questioned in this Audit Will Render
              Certain Indirect Costs Unallowable

             Finding No. 5 – FSCM Did Not Adequately Monitor Volunteer Stations

             Finding No. 6 - Federal Financial Reports Were Not Submitted Timely

             Finding No. 7 – FSCM’s Record Retention Policy Did Not Meet Grant Requirements

We discuss them in turn, highlighting the questioned costs2 associated with each finding.

                                                            
2
  A questioned cost is: (1) an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; (2) a finding that at the time of
testing, such costs were not supported by adequate documentation; or (3) a finding that the expenditure of funds for
the intended purpose was unnecessary or unreasonable.

                                                                    3
 
Finding No. 1 – FSCM’s Financial Management Reflects Pervasive Violations of Federal
Grant Management Requirements

Throughout the four-year period beginning in 2009, FSCM failed to comply with grant
agreement terms and Federal rules and regulations that require proper accountability for grant
funds. FSCM’s internal financial records, maintained in its MAS90 accounting system, show
that the organization’s non-Federal share of the program expenses, known as match costs,
were lower than reported to the Corporation in its Federal Financial Reports (FFRs).3 This held
true for each of the grants. Timely reconciliations would have detected these discrepancies. In
addition, FSCM charged costs against the grants that were not substantiated by adequate
documentation and were not properly approved. These improper charges are categorized in the
chart below. FSCM’s financial staff was inexperienced in accounting for Federal grants, and
that contributed to incorrect charges against the SCP and RSVP grants.

The table below shows the amount of the questioned costs in our tested sample of transactions,
for each category, in each of the programs4:

                                   SCP (09SCAMA001)                                          SCP (12SCAMA001)
                                                                                                                                                          Total
                                  Federal     Match                                         Federal      Match
      Issues                                                                                                                                            Questioned
                                 Questioned Questioned                                     Questioned  Questioned                                                                    Notes
                                                                                                                                                          Costs
                                   Costs      Costs                                          Costs       Costs
      Differences
    Between FFRs                     $                -           $130,340                            $            -               $31,638                    $161,978                    1
     and General
        Ledger
     Salaries and                            6,268                                -                        3,887                                 -                 10,155                2
    Fringe Benefits
     Other Direct                            9,947                                -                        2,476                                 -                 12,423                3
         Costs
       Volunteer                           19,312                                 -                        8,169                                 -                 27,481                3
         Meals
        Stipend                            1,225                              -                           303                                -                     1,528                 4
     Match Costs                               -                            340                             -                              140                       480                 5
     Under Match                         478,767                              -                       123,437                                -                   602,204                 5

       Totals                         $515,519                    $130,680                          $138,272                       $31,778                    $816,249




                                                                                                                                                                                                
3
 The FFR is a standardized, consolidated report of Federal grant awards and associated Federal share and match
costs claimed which are required to be reported by grantees to the Corporation on a semi-annual basis.
4
  For ease of reference, separate schedules recapping this information for SCP (Appendices A and B) and RSVP
(Appendices C and D) appear at the end of this report.

                                                                                              4
 
                     RSVP (07SRAMA004)        RSVP (10SRAMA003)
                                                                            Total
                    Federal     Match        Federal      Match
     Issues                                                               Questioned
                   Questioned Questioned    Questioned  Questioned                       Notes
                                                                            Costs
                     Costs      Costs         Costs       Costs
    Differences
     Between         $        -   $44,298         $     -     $86,325         $130,623     1
     FFRs and
      General
      Ledger
    Salaries and              -         -          16,088            -          16,088     2
       Fringe
      Benefits
    Other Direct         24,042      997           37,311            -          62,350   3&5
       Costs
     Volunteer           12,784         -          27,695         160           40,639   3&5
       Travel
    Match Costs               -     4,520               -       33,169          37,689     5

     Totals           $36,826     $49,815         $81,094    $119,654         $287,389




NOTES:

1.      Reconciliation Differences. We questioned match costs of $130,340 and $31,638 on
the SCP grants 09SCAMA001 and 12SCAMA001, respectively, and $44,298 and $86,325 on
the RSVP grants 07SRAMA004 and 10SRAMA003, respectively, based on reconciliation
differences between the FFRs and the FSCM general ledger. In each of these cases, the
claimed match costs reported on the FFRs exceeded the amounts shown in FSCM’s accounting
records. Some of the difference resulted from transposition errors when staff manually
transferred data from the general ledger into a summary spreadsheet from which the FFRs were
prepared. The process lacked quality control and invited mistakes.

In addition, FSCM’s general ledger system does not allocate the grant costs between Federal
and match costs. Instead, FSCM utilizes the summary analysis spreadsheet to manually
allocate costs between Federal and matching shares. FSCM based its allocation of costs (for
both the FFR and the general ledger) on the grant budget, rather than by allocating individual
transactions consistent with the grant terms. If FSCM’s grant budget called for a particular
category of expenses to be divided between Federal costs and match, FSCM staff allocated the
expenses to the Federal share first, and only then allocated any of the expenses to match. Not
only did this approach create a bias in favor of Federal costs, it also means that FSCM cannot
specify whether particular expenses were reported as Federal or as match and cannot show the
components of the costs reported on the FFRs. Therefore, for reconciliation purposes, we
treated as Federal any expenses that could not be definitively identified as match.

These unreconciled differences represent an internal control weakness in FSCM’s financial
management recordkeeping and transaction processing procedures.              In addition, the
procedures of accounting for and reporting grant costs were initially developed by a financial
manager who is no longer with the organization. The current financial department personnel
have striven to follow these procedures; however, they lack the training and knowledge to
determine whether these procedures meet Federal requirements or could be more effective if
revised.

                                              5
 
2.      Salaries and Fringe Benefits. We questioned salaries and fringe benefit costs where
we found that timesheets were missing or unsigned by the employee and/or a supervisor and
where an employee’s personnel file was missing. In those circumstances, it is impossible to
validate the employee’s labor charges. For our review of payroll transactions, we selected the
following months to review for each grant:

                 Grant                              Months
             09SCAMA001          May 2009, July 2009, December         2009, May
                                 2010, July 2010, December 2010,       May 2011,
                                 July 2011, and December 2011
             12SCAMA001          October 2012 and February 2013
             07SRAMA004          October 2009 and February 2010
             10SRAMA003          July 2010, December 2010, May         2011, July
                                 2011, December 2011, May 2012,        July 2012,
                                 and December 2012


Based on our review of the salaries and fringe benefits, we noted the following issues for each
grant:

Five employees charged SCP grant 09SCAMA001 during the months reviewed, with a
maximum of three individuals charging per month. Five timesheets (relating to three
employees) were not signed, for total questioned costs of $5,682, and one timesheet from
another employee was not provided, resulting in unsupported costs of $586.

FSCM does not require either its employees or their supervisors to date their signatures on the
timesheets. There is thus no verification that timesheets were prepared and approved in timely
fashion, rather than in advance or long after the fact.

Two employees charged SCP grant 12SCAMA001 during the months reviewed. Two
timesheets were not signed and dated by an employee, causing us to question $2,418. One
timesheet was not signed by the employee’s supervisor resulting in questioned costs of $1,469.

Eight employees charged RSVP grant 10SRAMA003, with a maximum of five individuals
charging per month. Four timesheets were not signed by an employee, resulting in questioned
costs of $6,282, and three timesheets were not signed by the employees’ supervisors, causing
us to question an additional $4,746. No personnel file could be located for one employee, so
the organization had no substantiation that she/he was paid at the correct rate. As a result, we
questioned that individual’s salary for the entire audit period, totaling $5,060. The employee
continues to work on the RSVP grant.

In our discussions with FSCM management, it attributed the above exceptions to staff turnover
and inexperienced staff not strictly adhering to the FSCM’s Accounting Procedures Manual.

3.     Other Direct Costs. We questioned other direct costs due to lack of supporting
documentation, improper or no approval for payment, and a lack of explanation on the allocation
to the grants. We selected a random sample of other direct costs to review for each grant.
Based on our review of the other direct costs, we noted the following issues:

For the SCP grant 09SCAMA001, we reviewed 35 transactions representing $65,756 of costs
charged to the grant. We noted nine transactions, totaling $7,139, where proper supporting
documentation was not provided; and four transactions, totaling $2,808, that lacked any


                                               6
 
evidence that the payments were approved or where the same individual requested the check
and approved the payment.

For the SCP grant 12SCAMA001, we reviewed 15 transactions representing $19,881 of costs
charged to the grant. We noted two transactions, totaling $1,451, that lacked any evidence that
they payments were reviewed; and two transactions, totaling $421, that lacked any supporting
documentation; and one transaction charged to SCP grant 12SCAMA001, totaling $604, where
the program supplies costs supported multiple grants and the supporting documentation did not
demonstrate how the costs were allocated to SCP and RSVP grants.

For the SCP grants, we noted that FSCM reimbursed the volunteers for meals utilizing an
arbitrary rate of $2.50 per day. The grantee had no evidence to substantiate this rate and the
staff could not explain how it was determined. Therefore, we have questioned all volunteer
meals paid on both SCP grants resulting in questioned costs of $19,312 for grant 09SCAMA001
and $8,169 for 12SCAMA001.

For the RSVP grant 07SRAMA004, we reviewed ten transactions representing $72,776 of costs
charged to the grant. We noted six transactions, totaling $24,042, that lacked any evidence that
the transactions were reviewed and approved

For the RSVP grant 10SRAMA003, we selected a random sample of 27 transactions
representing $134,334 of costs charged to the grant. We noted 11 transactions, totaling
$26,919, where proper documentation was not provided; three transactions, totaling $9,072,
where the payments were not properly approved because support was not maintained to
demonstrate how it was approved; and three transactions charged to RSVP grant
10SRAMA003, totaling $1,320, where the costs supported various grants; however, the
supporting documentation did not demonstrate how the costs were allocated to SCP and RSVP
grants.

For the RSVP grants, we reviewed six travel costs transactions representing $40,957 of costs
charged to the grant. Based on our review of these travel costs, we noted two transactions,
totaling $2,945, where the supporting documentation was not maintained to show it was
approved. In addition, we noted three transactions, totaling $41, where FSCM reimbursed the
volunteers utilizing predetermined flat rates for travel instead of the actual travel costs incurred
by the volunteers. FSCM reimbursed volunteers $1.50 for personally-owned vehicles, $0.60 for
public bus transportation, and $2.50 for meals; all of these rates were arbitrary and FSCM staff
could not explain their basis. Therefore, we questioned all travel costs paid to volunteers,
totaling $12,784 for the 07SRAMA004 and $24,709, less the specific costs already questioned
above for the 10SRAMA003 grant.

In our discussions with FSCM management, it attributed the above exceptions to staff turnover
and inexperienced staff not strictly adhering to the FSCM’s Accounting Procedures Manual.

4.      Stipend. We questioned stipend payments that lacked supporting documentation,
including timesheets unsigned by the volunteers and/or their supervisors, and where the hours
recorded on volunteers’ timesheets differed from the hours for which they were paid. Some of
the discrepancies were underpayments and others resulted in overpayments; we questioned
only the overpayments.

For SCP grant 09SCAMA001, we selected a random sample of 15 volunteers from the following
periods:



                                                 7
 
               Fiscal Years                         Months
             2010                July 2009, September 2009, November 2009,
                                 January 2010, February 2010, and March 2010
             2011                April 2010, June 2010, September 2010,
                                 December 2010, January 2011, February 2011,
                                 and March 2011
             2012                April 2011, May 2011, June 2011, August 2011,
                                 September 2011, October 2011, November
                                 2011, January 2012, and February 2012


We noted nine transactions, totaling $689, where proper documentation was not provided; four
transactions, totaling $249, where the hours recorded on timesheets were not consistent with
the hours for which volunteers were paid; three transactions, totaling $223, where the volunteer
timesheets were not signed by the volunteer; and one transaction, totaling $64, where a
nonstipended (i.e., income-ineligible) volunteer was paid.

For SCP grant 12SCAMA001, we selected a random sample of 15 volunteers from the following
periods: March 2013 and April, May, June, July, September, November, and December of 2012.
We noted two transactions, totaling $178, where the volunteer was paid for more hours than
reported on the timesheet; and one transaction, totaling $125, where proper documentation was
not provided.

In our discussions with FSCM management, it attributed the above exceptions to staff turnover
and inexperienced staff not strictly adhering to the FSCM’s Accounting Procedures Manual.

5.       Match Costs. We questioned match costs due to lack of supporting documentation and
insufficient or no evidence that payments were approved, and also found that the SCP grants
did not meet their matching requirements. For each grant, we selected a random sample of
match costs to review and noted the following issues:

We reviewed ten transactions for each of the SCP grants, representing $33,302 and $16,241 of
match costs, respectively. FSCM did not provide adequate support for three transactions for
both grants, totaling $340 and $106, respectively. Another transaction for $34 on grant
12SCAMA001 did not have adequate support to demonstrate that it was approved.

For the RSVP grant 07SRAMA004, we reviewed 15 transactions representing $45,335 of match
costs reported. During our review, we noted three transactions, totaling $4,457, for which there
was no supporting documentation to show that the payments were approved; three transactions,
totaling $63, where the amount charged to the grant did not agree to the supporting
documentation and also did not reflect how the amount was computed; and one transaction,
totaling $997, where the in-kind documentation did not fully support the amount charged to the
grant. This in-kind transaction was related to our testing within Other Direct Costs (note 3).
Since FSCM’s general ledger system does not allocate the grants costs between Federal and
match, we treated this as part of our Federal cost testing.

For RSVP grant 10SRAMA003, we reviewed 14 transactions representing $126,214 of match
costs reported. During our review, we noted five transactions, totaling $31,978, where no
supporting documentation was provided; two transactions, totaling $1,191, where the supporting
documentation was inconsistent with the amount charged to the grant; and one transaction,
totaling $160, where the in-kind voucher did not support the entire amount charged to the grant.
This in-kind transaction was related to our testing within Other Direct Costs (note 3). Since

                                               8
 
FSCM’s general ledger system does not allocate the grants costs between Federal and match,
we treated this transaction as part of our Federal cost testing.

In our discussions with FSCM management, it attributed the above exceptions to staff turnover
and inexperienced staff not strictly adhering to the FSCM’s Accounting Procedures Manual.

We identified questioned Federal and match costs from note 1 (Reconciliation Differences) and
note 5 (Match Costs), and compared the allowable match costs to the amount FSCM is required
to match based on the allowable Federal costs. Based on this calculation, we noted that SCP
grant 09SCAMA001 fell short of its match requirements by $172,294. Because the grant
required FSCM to match 35.99 percent of Federal costs, this under-matching requires us to
question Federal costs of $478,767. For SCP grant 12SCAMA001, we noted FSCM fell short of
its match requirements by $20,404. Here, the grant required FSCM to match 16.53 percent of
the Federal costs, so the match shortfall requires us to question Federal costs of $123,437.

Criteria

45 Code of Federal Regulations (CFR) §2543, Grants and Agreements with Institutions of
Higher Education, Hospitals, and Other Non-Profit Organizations, .21(b) states:

    Recipients’ financial management systems shall provide for the following:

       (1) Accurate, current and complete disclosure of the financial results of each
           federally-sponsored project or program in accordance with the reporting
           requirements set forth in § 2543.51. If a Federal awarding agency requires
           reporting on an accrual basis from a recipient that maintains its records on
           other than an accrual basis, the recipient shall not be required to establish an
           accrual accounting system. These recipients may develop such accrual data
           for its reports on the basis of an analysis of the documentation on hand.

       (2) Records that identify adequately the source and application of funds for
           federally-sponsored activities. These records shall contain information
           pertaining to Federal awards, authorizations, obligations, unobligated
           balances, assets, outlays, income and interest.

       (3) Effective control over and accountability for all funds, property and other
           assets. Recipients shall adequately safeguard all such assets and assure
           they are used solely for authorized purposes.

       (6) Written procedures for determining the reasonableness, allocability and
           allowability of costs in accordance with the provisions of the applicable
           Federal cost principles and the terms and conditions of the award.

       (7) Accounting records including cost accounting records that are supported by
           source documentation.

45 CFR §2543.23, Cost sharing or matching, states:

    (a) All contributions, including cash and third party in-kind, shall be accepted as part
    of the recipient's cost sharing or matching when such contributions meet all of the
    following criteria:

       (1) Are verifiable from the recipient’s records. . . .


                                                   9
 
45 CFR §2543.27, Allowable costs, states:

     For each kind of recipient, there is a set of Federal principles for determining
     allowable costs. Allowability of costs shall be determined in accordance with the cost
     principles applicable to the entity incurring the costs… The allowability of costs
     incurred by non-profit organizations is determined in accordance with the provisions
     of OMB Circular A-122, “Cost Principles for Non-Profit Organizations.” . . . The
     allowability of costs incurred by commercial organizations and those non-profit
     organizations listed in Attachment C to Circular A-122 is determined in accordance
     with the provisions of the Federal Acquisition Regulation (FAR) at 48 CFR part 31.

Recommendations:

We recommend that the Corporation:

     1a. Disallow and recover the questioned costs totaling $1,103,638;

     1b. Require FSCM accounting personnel to attend fiscal training to enhance their knowledge
         of Federal grant accounting requirements and the related internal controls;

     1c. Ensure that FSCM implements procedures to verify that all costs are adequately
         documented before entering any costs into its accounting system;

     1d. Ensure that FSCM revises its timesheet forms for staff and volunteers to require that all
         signatures, including those of supervisors, be dated;

     1e. Require that FSCM trains the staff responsible for documenting grant costs to ensure
         that they completely understand the documentation requirements;

     1f. Ensure that FSCM’s FFRs are consistent with and reconciles to its general ledger, and
         that supervisory staff review the reconciliations regularly; and

     1g. Withhold additional drawdowns and require supporting documentation prior to any
         further grant reimbursements.



FSCM’s and Auditor’s Response:

FSCM provided its responses for each of the areas discussed within this finding.              Our
responses to FSCM’s responses for each area are noted below:

1.      Reconciliation Differences:

FSCM’s Response:      Though FSCM stated that the finding has valid points and the
discrepancies noted are serious and deserving of corrective action, they disagreed with the
questioned costs because the required matching expenses were met by the end of the grant
period.

Auditor’s Response: We disagree with FSCM’s response and reiterate our recommendations
as stated above. This finding was specifically related to the issue that FSCM’s general ledger
did not agree to the amount of match costs reported on the FFR. FSCM only claimed it met the
match requirements, but it did not respond to the unreconciled difference issue.


                                                10
 
2.      Salaries and Fringe Benefits:

FSCM’s Response:        FSCM agreed with the finding and has implemented the following
corrective actions:

           Timesheets are reviewed for employee signature and authorized approval by the
            Fiscal Department.

           Any incomplete or inaccurate timesheets are returned to the appropriate department
            for correction.

           Sample timesheets are reviewed annually by an outside auditor.

           A missing personnel file was located during the audit process and was properly filed.

Auditor’s Response: We agree with FSCM’s plan and recommend the Corporation follows up
with FSCM to ensure its plan as described above addresses the root cause of the finding and
has been properly completed and implemented.

3.      Other Direct Costs:

FSCM’s Response: FSCM disagreed with the questioned costs associated with the SCP meals
and RSVP local transportation reimbursement because:

    SCP meals rate of $2.50 was determined in 2008 based on a suggested rate of $2.00 per
     meal at an elder dining center with cost of living increases since 2008; and

    RSVP local transportation reimbursement is based on the actual costs associated with using
     a volunteer’s personally-owned vehicle and bus transportation.

FSCM disagreed with the questions costs associated with the program director’s travels due to
the lack of approval. FSCM stated that for a number of these transactions, the Program
Director was the requestor. FSCM believed that since the check request form was completed
and signed by the Program Director as the requesting individual, it was a sufficient approval for
the transaction.

Finally, FSCM disagreed with the questioned costs due to the lack of documentation because
they stated that the documentation was provided during the course of the audit.

Auditor’s Response: We reiterate our recommendations as noted above and disagree with
FSCM’s position on the SCP meals and RSVP local transportation rates because these rates
should be documented to demonstrate they are not arbitrarily determined. In addition, in order
for the volunteers to be reimbursed for meals under the SCP grant and for local transportation
under the RSVP grant, volunteers are required to have incurred a cost associated with the
reimbursement. To ensure the volunteer incurred applicable costs, FSCM should gather
information from volunteers documenting their actual costs incurred prior to reimbursements.

Additionally, we disagree with FSCM’s comment that transactions requested by the Program
Director were properly approved. Basic segregation of duties and internal controls require that
all transactions be approved by another individual with a management role within the
organization separate from the individual who requests or initiates a transaction, regardless of
the requester’s position or title.



                                               11
 
Finally, FSCM submitted additional documentation after the fieldwork and towards the end of
finalizing the draft report. Due to the late submission of this documentation not all
documentation could be reviewed. We recommend that the Corporation reviews any
documentation associated with the unsupported travel transactions and determines if they
support the costs reported under the grants.

4.     Stipend Payments:

FSCM’s Response: FSCM agreed with the finding and implemented the following corrective
actions:

          SCP staff has been retrained on correct procedures.

          Fiscal staff will periodically audit a sample selection to assure compliance.

          Materiality of the findings is questioned as only overpayments were reported.

Auditor’s Response: We agree with FSCM’s action plans to retrain the SCP staff and conduct
periodic audits. We recommend the Corporation follows up with FSCM to ensure the plan as
described above addresses the root cause of the finding and has been properly completed and
implemented. FSCM stated in its response that it questioned the materiality of the finding
because only overpayments were reported. This is not a corrective action plan and we disagree
with this aspect of FSCM’s response. FSCM is responsible for ensuring all appropriate and
allowable costs are reported under its CNCS’ grants.

5.     Match Costs:

FSCM’s Response: FSCM disagreed with the questioned costs because it believed the match
requirements were met by the end of the grant period and it also claimed that the match
requirement percentages noted in the finding are incorrect. FSCM also disagreed with the
RSVP match questioned costs stating that all documentation was provided during the audit.

Auditor’s Response: We reiterate our recommendations as stated above and disagree with
FSCM’s response because its analysis claiming it met the match requirements does not take
into consideration the questioned costs reported within this finding and findings 2 and 3. In
addition, FSCM submitted additional documentation after the fieldwork and towards the end of
finalizing the draft report. Due to the late submission of this documentation not all
documentation could be reviewed. We recommend the Corporation reviews any additional
documentation associated with the unsupported match transactions and determine if it supports
the costs reported under the RSVP grant.



Finding No. 2 – FSCM Failed to Ensure that Volunteers Met Eligibility Requirements,
Including for the Receipt of Stipends

FSCM failed to conduct critical background checks on its volunteers, maintain essential
documentation and, in the case of the SCP grants, ensure that volunteers were eligible to
receive means-tested benefits. For the last reason, we question the stipend payments of
$35,780 charged to SCP grant 09SCAMA001 as Federal costs and $8,792 in stipend payments
charged to SCP grant 12SCAMA001. The other deficiencies constitute failures to comply with
grant agreement terms and applicable laws and regulations.


                                                12
 
SCP

SCP is a means-tested program in which participants who fall below an income threshold tied to
the poverty level are entitled to a stipend of $2.65 per service hour. SCP had approximately
sixty-five (65) volunteers for each SCP grant year within in our audit scope. We reviewed the
files of sixty (60) volunteers who received stipend payments from the SCP grants, or fifteen (15)
volunteers per grant year. In twelve (12) of these cases, FSCM could not demonstrate that it
verified volunteers’ age, completion of physical examination, income, or that volunteers were in
fact eligible to enroll in the program and receive the payments. FSCM paid a total of $15,431 to
these individuals without ensuring their eligibility.

To protect members of the public served by Senior Corps volunteers, SCP grantees are
required to undergo State Criminal Registry Searches and National Sex Offender Public Web
site (NSOPW) checks. For 27 of the 60 volunteers in our sample, there were no records in their
files to demonstrate that this important safety requirement was met. FSCM paid a total of
$29,141 to these individuals.      Six of these 27 volunteers also lacked the eligibility
documentation discussed in the previous paragraph, so their questioned costs appear there,
rather than here.

We discovered additional deficiencies in the volunteers’ files:

       One (1) file did not contain the volunteer’s written acknowledgement of program rules
        and agreement to comply.

       None of the sixty (60) files included evidence of the volunteers’ written assignment plans
        being completed by the respective volunteer stations.

RSVP

RSVP had approximately 519 volunteers for each grant year within our audit scope, of which we
reviewed sixty (60). Based on our review of these sixty (60) volunteers’ files, we noted the
following deficiencies:

       Sixteen (16) files did not contain verification of the volunteer’s age.

       All sixty (60) files lacked proof of the volunteer’s agreeing to serve without
        compensation.

       Sixteen (16) files did not contain verification of the volunteer’s residing in or nearby the
        community being served.

       All sixty (60) files lacked the volunteer’s written acknowledgement of program rules and
        agreement to comply.

       All sixty (60) files lacked evidence of the volunteer’s written assignment plans being
        completed by the respective volunteer stations.

We did not question any costs for RSVP volunteers because stipends were not paid to RSVP
volunteers.

Criteria

45 CFR §2540.200, To whom must I apply suitability criteria relating to criminal history?, states:


                                                  13
 
    You must apply suitability criteria relating to criminal history to an individual applying
    for, or serving in, a position for which an individual receives a Corporation grant-
    funded living allowance, stipend, education award, salary, or other remuneration.

45 CFR §2540.203, When must I conduct a State criminal registry check and a National Sex
Offender Public Web site check on an individual in a covered position?, states:

    (a) The State criminal registry check must be conducted on Foster Grandparents,
        Senior Companions, and AmeriCorps State and National participants and grant-
        funded staff with recurring access to children, persons age 60 or older, or
        individuals with disabilities, who enroll in, or are hired by, your program after
        November 23, 2007. For all other covered individuals, the State criminal registry
        check must be conducted on an individual who enrolls in, or is hired by, your
        program on or after October 1, 2009.

    (b) The National Sex Offender Public Web site check must be conducted on an
        individual who is serving, or applies to serve, as a Foster Grandparent, Senior
        Companion, or AmeriCorps State and National participant or grant-funded staff
        with recurring access to children, persons age 60 or older, or individuals with
        disabilities on or after November 23, 2007. For all other covered individuals, the
        National Sex Offender Public Web site check must be conducted on an individual
        who enrolls in, or is hired by, your program on or after October 1, 2009.

45 CFR §2540.205, What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, states:

    You must:

    (a) Document in writing that you verified the identity of the individual in a covered
        position by examining the individual's government-issued photo identification
        card, and that you conducted the required checks for the covered position; and

    (b) Maintain the results of the National Service Criminal History check (unless
        precluded by State law) and document in writing that you considered the results
        in selecting the individual.

45 CFR §2551.25, What are a sponsor's administrative responsibilities?, states:

    A sponsor shall:

    [omitted]

    (g) Establish record keeping/reporting systems in compliance with Corporation
    requirements that ensure quality of program and fiscal operations, facilitate timely
    and accurate submission of required reports and cooperate with Corporation
    evaluation and data collection efforts.

45 CFR §2551.41, Who is eligible to be a Senior Companion?, states:

    (a)To be a Senior Companion, an individual must:

       (1) Be 55 years of age or older;



                                                 14
 
       (2) Be determined by a physical examination to be capable, with or without
           reasonable accommodation, of serving adults with special needs without
           detriment to either himself/herself or the adults served;

       (3) Agree to abide by all requirements as set forth in this part; and

       (4) In order to receive a stipend, have an income that is within the income
           eligibility guidelines specified in this subpart D.

45 CFR §2551.43, What income guidelines govern eligibility to serve as a stipended Senior
Companion?, states:

    (a) To receive a stipend, a Senior Companion may not have an annual income from
        all sources, after deducting allowable medical expenses, which exceeds the
        program's income eligibility guideline for the State in which he or she resides.
        The income eligibility guideline for each State is 200 percent of the poverty line,
        as set forth in 42 U.S.C. 9902 (2).

    (b) For applicants to become stipended Senior Companion, annual income is
        projected for the following 12 months, based on income at the time of application.
        For serving stipended Senior Companion, annual income is counted for the past
        12 months. Annual income includes the applicant or enrollee's income and that of
        his/her spouse, if the spouse lives in the same residence. Sponsors shall count
        the value of shelter, food, and clothing, if provided at no cost by persons related
        to the applicant, enrollee, or spouse.

    (c) Allowable medical expenses are annual out-of-pocket medical expenses for
        health insurance premiums, health care services, and medications provided to
        the applicant, enrollee, or spouse which were not and will not be paid by
        Medicare, Medicaid, other insurance, or other third party pay or, and which do
        not exceed 50 percent of the applicable income guideline.

    (d) Applicants whose income is not more than 100 percent of the poverty line shall
        be given special consideration for enrollment.

    (e) Once enrolled, a Senior Companion shall remain eligible to serve and to receive
        a stipend so long as his or her income, does not exceed the applicable income
        eligibility guideline by 20 percent.

45 CFR §2551.44, What is considered income for determining volunteer eligibility?, states:

    (a) For determining eligibility, “income” refers to total cash and in-kind receipts
        before taxes from all sources including:

       (1) Money, wages, and salaries before any deduction, but not including food or
           rent in lieu of wages;

       (2) Receipts from self-employment or from a farm or business after deductions
           for business or farm expenses;

       (3) Regular payments for public assistance, Social Security, Unemployment or
           Workers Compensation, strike benefits, training stipends, alimony, child


                                                15
 
           support, and military family allotments, or other regular support from an
           absent family member or someone not living in the household;

       (4) Government employee pensions, private pensions, and regular insurance or
           annuity payments; and

       (5) Income from dividends, interest, net rents, royalties, or income from estates
           and trusts.

    (b) For eligibility purposes, income does not refer to the following money receipts:

       (1) Any assets drawn down as withdrawals from a bank, sale of property, house
           or car, tax refunds, gifts, one-time insurance payments or compensation from
           injury.

       (2) Non-cash income, such as the bonus value of food and fuel produced and
           consumed on farms and the imputed value of rent from owner-occupied farm
           or non-farm housing.

45 CFR §2551.42, What type of criminal convictions or other adjudications disqualify an
individual from serving as a Senior Companion or as Senior Companion grant-funded
employee?, states:

    Any individual who is registered, or who is required to be registered, on a State sex
    offender registry, or who has been convicted of murder, as defined under Federal
    law in section 1111 of title 18, United States Code, is deemed unsuitable for, and
    may not serve in, a position as a Senior Companion or as a Senior Companion
    grant-funded employee.

45 CFR §2551.72, Is a written volunteer assignment plan required for each volunteer?, states:

    (a) All Senior Companion performing direct services to individual clients in home
        settings and individual clients in community-based setting, shall receive a written
        volunteer assignment plan developed by the volunteer station that:

       (1) Is approved by the sponsor and accepted by the Senior Companion;

       (2) Identifies the client(s) to be served;

       (3) Identifies the role and activities of the Senior Companion and expected
           outcomes for the client(s);

       (4) Addresses the period of time each client is expected to receive such services;
           and

       (5) Is used to review the status of the Senior Companion’s services in working
           with the assigned client(s), as well as the impact of the assignment on the
           client(s).

    (b) If there is an existing plan that incorporates paragraphs (a)(2), (3), and (4) of this
        section, that plan shall meet the requirement.

45 CFR §2553.41, Who is eligible to be a RSVP volunteer?, states:


                                                    16
 
    (a) To be an RSVP volunteer, an individual must:

       (1) Be 55 years of age or older;

       (2) Agree to serve without compensation;

       (3) Reside in or nearby the community served by RSVP;

       (4) Agree to abide by all requirements as set forth in this part.

45 CFR §2553.25, What are a sponsor's administrative responsibilities?, states:

    A sponsor shall:

    [omitted]

       (g) Establish record keeping and reporting systems in compliance with
           Corporation requirements that ensure quality of program and fiscal
           operations, facilitate timely and accurate submission of required reports and
           cooperate with Corporation evaluation and data collection efforts.

45 CFR §2553.62, What are the responsibilities of a volunteer station?, states:

    A volunteer station shall undertake the following responsibilities in support of RSVP
    volunteers:

       (a) Develop volunteer assignments that impact critical human and social needs,
           and regularly assess those assignments for continued appropriateness;

Recommendations:

We recommend that the Corporation:

    2a. Disallow and recover the questioned costs totaling $44,572;

    2b. Ensure that FSCM staff attend training associated with the volunteer eligibility
        requirements, and the proper way to maintain volunteer file documentation to ensure its
        compliance with these requirements, particularly when personnel changes (terminations,
        new hires) occur;

    2c. Require FSCM to develop and implement procedures to ensure that volunteer eligibility
        requirements are met and proper documentation is maintained;

    2d. Ensure that FSCM volunteer stations create and document volunteers’ written
        assignment plans; and

    2e. Given the high incidence of absent eligibility documentation, conduct a comprehensive
        review of all FSCM volunteer files and disallow costs for volunteers whose eligibility is
        not documented.

FSCM’s Response:

FSCM stated that it conducted background checks for all 27 volunteers identified in the report.
FSCM claimed it did not identify any issues, and therefore disagreed with the recommendation

                                                17
 
to recover the questioned costs. In addition, FSCM stated that the state’s background check
system no longer maintains historical background check information, which now requires FSCM
to maintain printed compliance results and document them in the volunteer file.

FSCM disagreed with the finding and questioned costs and stated that the volunteers were
properly verified for eligibility associated with their age and income. In addition, FSCM stated
that the volunteer physicals were completed once a year on their anniversary date joining the
program and the volunteers selected for audit had not yet reached their anniversary dates.

Finally, FSCM agreed with the portion of the finding that related to the RSVP grant and took
these actions:

       RSVP has implemented a checklist to ensure that necessary documents are obtained
        from each volunteer. This checklist will be maintained within the volunteer’s file.
       Human resource staff will periodically audit a sample of volunteer files to ensure
        compliance.

Auditor’s Response:

We continue to make the recommendations as stated above. The criminal background checks,
verification of volunteers’ age and income, and completion of physical examination are required
SCP regulations that must be performed before the volunteers start with the program and
receive stipends. Any stipends paid to volunteers before conducting all necessary background
checks and eligibility verifications should not be allowed and should be recovered. Volunteers
should be properly cleared with all documentation before they start with the program.
Furthermore, the fact that the volunteers’ anniversary dates had not been reached does not
preclude FSCM’s requirements to have volunteer’s physicals conducted before they were
allowed to start with the program.

We agree with the action implemented by FSCM related to the RSVP grant volunteers’ files and
recommend the Corporation follows up with FSCM to ensure its procedures have been
implemented and address the root cause of the finding.



Finding No. 3 – Required Background Checks Were Not Conducted or Documented for
FSCM Staff

FSCM was unable to demonstrate that it conducted or documented National Service Criminal
History or NSOPW checks for its SCP and RSVP employees, resulting in questioned Federal
costs of $204,737 charged to the SCP 09SCAMA001 grant, $66,661 charged to the SCP
12SCAMA001 grant, $194,972 charged to the RSVP 07SRAMA004 grant, and $440,163
charged to the RSVP 10SRAMA003 grant, for the salaries and fringe benefits associated with
these employees. These questioned Federal costs were associated with all six (6) SCP
employees and all eight (8) of the RSVP employees. These questioned salaries and fringe
benefits amounts do not include the costs questioned within Finding No. 1 above.

FSCM Program Directors claimed that all FGP and RSVP staff have a criminal history check
performed; however, the documentation to support that the background checks were performed
was not provided by FSCM during the fieldwork. Applicable rules and regulations expressly
require not only that the checks be performed but also that the grantee maintains the original
documentation of the results.


                                              18
 
Once again FSCM management attributed the above exceptions to staff turnover and
inexperienced staff not strictly adhering to the FSCM’s Accounting Procedures Manual.



Criteria

45 CFR §2540.200, To whom must I apply suitability criteria relating to criminal history?, states:

    You must apply suitability criteria relating to criminal history to an individual applying
    for, or serving in, a position for which an individual receives a Corporation grant-
    funded living allowance, stipend, education award, salary, or other remuneration.

45 CFR §2540.203, When must I conduct a State criminal registry check and a National Sex
Offender Public Web site check on an individual in a covered position?, states:

    (a) The State criminal registry check must be conducted on Foster Grandparents,
        Senior Companions, and AmeriCorps State and National participants and grant-
        funded staff with recurring access to children, persons age 60 or older, or
        individuals with disabilities, who enroll in, or are hired by, your program after
        November 23, 2007. For all other covered individuals, the State criminal registry
        check must be conducted on an individual who enrolls in, or is hired by, your
        program on or after October 1, 2009.

    (b) The National Sex Offender Public Web site check must be conducted on an
        individual who is serving, or applies to serve, as a Foster Grandparent, Senior
        Companion, or AmeriCorps State and National participant or grant-funded staff
        with recurring access to children, persons age 60 or older, or individuals with
        disabilities on or after November 23, 2007. For all other covered individuals, the
        National Sex Offender Public Web site check must be conducted on an individual
        who enrolls in, or is hired by, your program on or after October 1, 2009.

45 CFR §2540.205, What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, states:

    You must:

    (a) Document in writing that you verified the identity of the individual in a covered
        position by examining the individual's government-issued photo identification
        card, and that you conducted the required checks for the covered position; and

    (b) Maintain the results of the National Service Criminal History check (unless
        precluded by State law) and document in writing that you considered the results
        in selecting the individual.

45 CFR §2551.25, What are a sponsor's administrative responsibilities?, states:

    A sponsor shall:

    [omitted]

    (g) Establish record keeping/reporting systems in compliance with Corporation
    requirements that ensure quality of program and fiscal operations, facilitate timely


                                                 19
 
    and accurate submission of required reports and cooperate with Corporation
    evaluation and data collection efforts.

45 CFR §2551.42, What types of criminal convictions or other adjudications disqualify an
individual from serving as a Senior Companion or as a Senior Companion grant-funded
employee?, states:

    Any individual who is registered, or who is required to be registered, on a State sex
    offender registry, or who has been convicted of murder, as defined under Federal
    law in section 1111 of title 18, United States Code, is deemed unsuitable for, and
    may not serve in, a position as a Senior Companion or as a Senior Companion
    grant-funded employee.

Recommendations:

We recommend that the Corporation:

    3a. Disallow and recover the questioned costs totaling $906,533;

    3b. Ensure that FSCM staff attend training associated with the grant requirements and the
        proper way to document its compliance with these requirements;

    3c. Require FSCM to develop and implement procedures to ensure that grant requirements
        associated with the National Service Criminal History and NSOPW checks for
        employees are met and documented; and
         
    3d. Since none of the staff charged to these grants had undergone or documented the
        necessary background checks, any costs for their services prior to the audit period
        should be disallowed. The Corporation should also review the eligibility of any other
        staff who worked on these grants before the audit period.


FSCM’s Response:

FSCM completed criminal background checks for all required individuals. Since FSCM did not
identify any issues and therefore disagreed with the recommendation to recover the questioned
costs reported under this finding. In addition, FSCM stated that it would work diligently to
ensure required background checks are properly documented in their employee files in the
future.

Auditor’s Response:

We continue to make the recommendations as stated above and note that FSCM did not
respond to recommendations 3b through 3d. The Corporation should ensure that FSCM
implements these recommendations.



Finding No. 4 – Disallowance of the Direct Costs Questioned in this Audit Will Render
Certain Indirect Costs Unallowable

FSCM applies its approved indirect cost rate to all direct costs charged to the SCP and RSVP
grants, excluding capital expenditures and subawards. Based on the questioned costs

                                               20
 
disclosed within this report (Findings No. 1 through 3), we summarized the questioned indirect
costs as follows: $104,381 on SCP 09SCAMA001; $28,479 on SCP 12SCAMA001; $34,076 on
RSVP 07SRAMA004; and $74,346 on RSVP 10SRAMA003 grants.

FSCM calculates its indirect cost rate annually and this rate is approved by the Program
Support Center, Financial Management Services, Division of Cost Allocations of the Department
of Health and Human Services. For each of the fiscal years under audit, the FSCM approved
indirect cost rates were as follows:

                                Fiscal Year          Indirect Cost Rate
                               June 30, 2010               12.1%
                               June 30, 2011               11.6%
                               June 30, 2012               11.6%
                               June 30, 2013               11.6%


We applied the above rates to each of the questioned costs, by the fiscal year when the costs
were incurred. Based on this procedure, we calculated the questioned costs for each grant as
follows:

                                 SCP 09SCAMA001                    SCP 12SCAMA001
                Finding
                  No.        Questioned      Indirect Cost     Questioned     Indirect Cost
                               Costs            (Match)          Costs           (Match)
                   1          $646,199        $ 76,084         $170,050          $19,726

                   2             35,780             4,217          8,792           1,020

                   3            204,737         24,080           66,661            7,733

                 Totals       $886,716        $104,381         $245,503          $28,479




              RSVP 07SRAMA004                                 RSVP 10SRAMA003
Finding
                           Indirect    Questioned                          Indirect Cost
  No.        Questioned
                             Cost        Costs
               Costs
                           (Match)                           Federal          Match            Total
      1        $86,641      $10,484    $200,748              $2,831         $20,456           $23,287

      3        194,972       23,592       440,163            12,807           38,252           51,059

    Totals    $281,613      $34,076    $640,911             $15,638         $58,708           $74,346



Recommendation:

We recommend that the Corporation:

      4. Disallow and recover the questioned costs totaling $241,282.


                                                    21
 
FSCM’s Response:

FSCM disagreed with the recovery of these questioned indirect costs based on its
disagreements with the questioned costs reported in Findings No. 1, 2, and 3.

Auditor’s Response:

We disagree with FSCM’s assessment on Findings No. 1, 2, and 3; therefore, and as previously
stated, we recommend the questioned indirect costs reported in this finding be recovered.



Finding No. 5 – FSCM Did Not Adequately Monitor Volunteer Stations

FSCM’s SCP and RSVP programs conduct their activities at multiple sites, sixteen (16)
volunteer stations in the case of SCP and sixty-three (63) stations for RSVP. Program sponsors
are expected to enter into Memoranda of Understanding (MOUs) with each volunteer station, to
set forth project requirements and divide responsibilities between the sponsor and the on-site
supervisors. The sponsor is also expected to monitor the volunteer sites to ensure that the
program achieves its objectives and complies with applicable requirements.

We reviewed FSCM’s oversight of ten (10) volunteer stations, divided evenly between RSVP
and SCP. None of the SCP sites had a signed MOU. FSCM stated that it is now reviewing all
of its SCP volunteer sites and will obtain a signed MOU for each.

FSCM also has no formal process for monitoring SCP and RSVP volunteer stations. During the
audit period, FSCM monitored the stations reactively, as issues came to its attention, rather
than based on a systematic risk assessment. The grantee did not document whatever
monitoring activities it performed. FSCM advises that the Program Directors for the SCP and
RSVP grants are currently developing a formal process for monitoring the volunteer stations.

Criteria

45 CFR §2551.23(c), What are a sponsor’s program responsibilities?, states:

    Develop and manage a system of volunteer stations by:

    [omitted]

       (2) Ensuring that the placement of Senior Companions is governed by a
       Memorandum of Understanding:
       (i) That is negotiated prior to placement;
       (ii) That specifies the mutual responsibilities of the station and sponsor;
       (iii) That is renegotiated at least every three years; and
       (iv) That states the station assures it will not discriminate against volunteers or in
             the operation of its program on the basis of race; color; national origin,
             including individuals with limited English proficiency; sex; age; political
             affiliation; religion; or on the basis of disability, if the participant or member is
             a qualified individual with a disability.

45 CFR §2553.23(c)(3), What are a sponsor’s program responsibilities?, states:



                                                   22
 
    Develop and manage a system of volunteer stations by to provide a wide range of
    placement opportunities that appeal to persons age 55 and over by:

    (3) Annually assessing the placements of RSVP volunteers to ensure the safety of
        volunteers and their impact on meeting the needs of the community.

Recommendations:

We recommend that the Corporation:

    5a. Ensure FSCM execute MOUs for all volunteer stations; and

    5b. Ensure FSCM develops and implements risk-based monitoring plans for all volunteer
        stations to ensure they are adhering to their grant mission.

FSCM’s Response:

FSCM disagreed with our finding. FSCM stated that their MOUs are in compliance with
requirements that are renegotiated every three years. In addition, FSCM stated that regulations
do not stipulate the need to document volunteer station site visits; however, they stated that
they have developed a formal process of volunteer station monitoring, including requirements to
document FSCM visits to volunteer stations and communications with volunteer stations.

Auditor’s Response:

We continue to make the recommendations as stated above. FSCM only addressed the
documentation aspect and requirements of volunteer station monitoring, but it did not address
whether it would take a risk-based monitoring approach to its volunteer stations; or if so, how its
risk-based monitoring plans would be designed and executed.

We disagree with FSCM’s statement regarding the regulations not stipulating the need to
document station visits. FSCM should follow 45 CFR §2551.23(c), which addresses the
development and management of a system of volunteer stations. Controls developed to
monitor a system of volunteer stations should be documented in order to demonstrate
compliance with the regulation but also to properly manage the volunteer stations and follow-up
on issues noted during the station visits. However, we agree with FSCM’s actions to develop a
formal process for station monitoring. We recommend that the Corporation follows up with
FSCM to verify the effectiveness and proper implementation of FSCM’s volunteer station
monitoring process and its related internal controls to ensure it addresses the root cause of the
finding.



Finding No. 6 - Federal Financial Reports Were Not Submitted Timely

FSCM is required to prepare and submit to the Corporation an FFR for each grant on a semi-
annual basis. This document is a standardized, consolidated Federal cash and expenditure
report showing the grant funds awarded to FSCM and the costs, both Federal share and match,
claimed by the grantee against those funds. During our testing of FFRs prepared by FSCM for
both the SCP and RSVP grants, we found that the following reports were submitted late:

       One (1) of the seven (7) SCP grant FFRs were submitted 47 days past the due date.



                                                23
 
       Two (2) of the six (6) RSVP grant FFRs were submitted late, with one being 17 days
        past due and the other 18 days past due.

FSCM management again attributed the above exceptions to staff turnover and inexperienced
staff not strictly adhering to the FSCM’s Accounting Procedures Manual.

When FFR reports are filed late, the Corporation is unable to monitor FSCM’s grant
administration and expense activity on a timely basis, which could adversely affect the program
goals and participants’ ability to serve the program recipients. Though the delays here were not
prolonged, a grantee should be prepared to submit the required reports in timely fashion.

Criteria

45 CFR §2543.52(iv), Financial reporting, states,

    The Federal awarding agency shall require recipients to submit the SF-269 or SF-
    269A (an original and no more than two copies) no later than 30 days after the end of
    each specified reporting period for quarterly and semi-annual reports, and 90
    calendar days for annual and final reports. Extensions of reporting due dates may be
    approved by the Federal awarding agency upon request of the recipient.

Recommendations:

We recommend that the Corporation:

    6a. Ensure FSCM develops and implements internal controls and procedures to assure that
        all program expenditures recorded on FFRs are reported to the Corporation in a timely
        manner; and

    6b. Ensure FSCM maintains correspondence and all related documentation to support its
        FFR submissions to the Corporation.

FSCM’s Response:

FSCM agreed with the finding and stated that it implemented corrective actions to address the
issues.     The corrective actions included implementing internal controls to ensure all
expenditures are timely reported in the FFRs by the required due dates. In addition, monthly
reconciliations, general ledger detail reports, copies of the FFR submission, and the FFR
submission confirmations will be maintained in a file dedicated to each grant program and will
be reviewed periodically by the Executive Director.

Auditor’s Response:

We agree with FSCM that internal controls need to be implemented to ensure all expenditures
are timely reported in the FFRs by the required due dates; however, FSCM did not provide
specific details describing what and how the internal controls would be implemented. Therefore,
we recommend the Corporation follows up with FSCM to determine the effectiveness and
proper implementation of these internal controls and to ensure FSCM addresses the root cause
of the finding.




                                               24
 
Finding No. 7 – FSCM’s Record Retention Policy Did Not Meet Grant Requirements

The records retention policies set forth in FSCM’s Accounting Procedures Manual do not
comply with the grant requirements established for non-profit organizations. The Manual
prescribed the following retention periods:

       Bank Statements for three years

       General correspondence for two years

       General ledgers / year-end trial balances for five years

       Invoices for four years

       Timesheets / cards / slips for four years

Moreover, FSCM calculates the above retention periods from the date on which the documents
were created.

FSCM’s retention policies [and practices] are not consistent with the Corporation’s regulation,
set forth in 45 CFR §2543.53(b), Retention and access requirements for records:

    Financial records, supporting documents, statistical records, and all other records
    pertinent to an award shall be retained for a period of three years from the date of
    submission of the final expenditure report or, for awards that are renewed quarterly
    or annually, from the date of the submission of the quarterly or annual financial
    report, as authorized by the Federal awarding agency.

Maintaining adequate supporting documentation is necessary to track expenses, provide
support for program accomplishments, and maintain an audit trail that can be reviewed. A
record retention policy that is consistent with the Corporation’s regulations would provide
uniform guidance to all employees, and would facilitate the retention of financial records for the
sufficient length of time required.

Recommendation:

We recommend that the Corporation:

    7. Ensure that FSCM revises its Accounting Procedures Manual so that its record retention
       policy adheres to the applicable regulation, which requires that support for Corporation
       grants be retained for a minimum of three years after submission of final expenditure
       report.

FSCM’s Response:

FSCM agreed with the finding and stated that it has updated its Accounting Procedures Manual
to reflect a new retention policy of five to seven years, based on the type of document to be
retained. For example, bank statements will be retained for seven years and general
correspondence for five years.

Auditor’s Response:

We continue to make the recommendations as stated above. FSCM has not adequately
addressed requirements from 45 CFR §2543.53(b), which states documentation “shall be

                                                25
 
retained for a period of three years from the date of submission of the final expenditure report or
… from date of the submission of the quarterly or annual financial report” (emphasis added).
The retention policy should not be based on the type of supporting documentation, but on the
submission date of final expenditure report, quarterly or annual financial report. For example,
during an ongoing audit/investigation or pending legal actions, documents must be retained for
a longer retention period until the audit/investigation is concluded or legal matters are resolved.
FSCM should address these situations in its record retention policy and the Corporation should
ensure that FSCM includes these further revisions in its record retention policy.



                                  OBJECTIVES AND SCOPE

Castro & Company, LLC was contracted by the OIG to conduct a financial audit designed to
determine whether FSCM expended Corporation-funded Federal assistance in accordance with
applicable requirements, and to report any resulting findings on questioned costs, internal
controls, and compliance with laws and regulations. The audit covered a four-year period from
early 2009 to early 2013, during which FSCM received a total of $3.47 million under four
Corporation grant awards. Of this amount, FSCM reported $2.44 million as claimed costs on its
FFRs.

The audit procedures required Castro to obtain an understanding of FSCM and its policies,
procedures and grants. They also included reviewing documents at FSCM’s offices related to
volunteer eligibility, claimed costs, matching costs, and compliance with laws, regulations, and
the terms of grant agreements. Our audit procedures included randomly selecting samples to
test costs claimed by FSCM for compliance with its Corporation grant agreements and other
Federal requirements. The questioned costs detailed in this report are based on this limited
sample; the total costs questioned might have been higher if we had tested all of the
expenditures incurred during the audit period, and we have not projected or estimated the
amounts that would have been questioned had all of the claimed costs been tested. We
conducted our on-site fieldwork at the FSCM offices in Worcester, Massachusetts, from June 3,
2013, to June 14, 2013. We allowed FSCM additional time to gather documents needed to
complete our testing procedures; therefore, we extended the fieldwork to June 28, 2013.

This audit was conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.



                                        BACKGROUND

The Corporation, under the authority of the National Community Service Trust Act, as amended,
awards grants and cooperative agreements to State commissions, nonprofit entities, and tribes
and territories to assist in the creation of full- and part-time national and community service
programs. Through these grantees, volunteers perform service to meet educational, human,
environmental, and public safety needs. SCP volunteers who meet an income-eligibility
threshold related to the poverty level receive a nominal stipend of $2.65 per service hour for
their participation; RSVP volunteers are not compensated.


                                                26
 
FSCM was established in 1889 as a private non-profit organization. Its mission is to aid
individuals and families through life transitions, and to serve children and adults by providing
counseling, support, guidance, and related services in response to community needs. FSCM
received its first Senior Corps grant in 2006, and its activities are funded through the
Corporation’s SCP and RSVP.



                                     EXIT CONFERENCE

Our exit conference was conducted on August 23, 2013. At the exit conference, we presented
each of the findings set forth in this report. The FSCM response was received on November 15,
2013 and is included in the appropriate sections of this report. The Corporation’s response was
received on November 15, 2013. Both sets of comments in their entirety are included in
Appendices E and F, respectively.




December 9, 2013
Alexandria, VA




                                              27
 
    APPENDICES




 
                                                                                   Appendix A

                       FAMILY SERVICES OF CENTRAL MASSACHUSETTS
                             SCHEDULE OF QUESTIONED COSTS
                               AWARD NO. 09SCAMA001 (SCP)

                                       Questioned Costs
              Issues                 Federal        Match            Totals        Notes
                                      Costs         Costs
    Inadequate Accounting            $ 515,519    $130,680        $646,199            1
    Operations Controls
    Missing Eligibility                 35,780              -        35,780           2
    Determination
    Missing Criminal and Sex           204,737              -       204,737           3
    Offender Documentation for
    Staff
    Indirect Costs                          -        104,381       104,381            4
               Totals                $756,036       $235,061      $991,097




NOTES:

      1. FSCM’s FFRs did not reconcile to its general ledger ($130,340 Match). The grantee
         also lacked documentation to support salaries and fringe benefits, other direct costs,
         stipends and match costs ($17,440 Federal, $340 Match). In addition, the volunteer
         meals were paid based on an arbitrary rate and not substantiated by actual costs
         incurred ($19,312 Federal). Finally, the grantee did not meet its match requirements
         resulting in Federal costs being questioned ($478,767 Federal). (See Finding No. 1)

      2. FSCM lacked written evidence to demonstrate that certain volunteers in our testing
         sample were eligible to receive means-tested payments. (See Finding No. 2)

      3. FSCM did not maintain evidence that it conducted the required National Service Criminal
         History and NSOPW Checks for its employees. (See Finding No. 3)

      4. FSCM over reported the indirect costs due to the questioned costs noted during the
         audit. (See Finding No. 4)




 
                                                                                     Appendix B

                     FAMILY SERVICES OF CENTRAL MASSACHUSETTS
                           SCHEDULE OF QUESTIONED COSTS
                             AWARD NO. 12SCAMA001 (SCP)

                                            Questioned Costs
               Issues                      Federal      Match                            Notes
                                            Costs       Costs             Totals
Inadequate Accounting Operations          $138,272     $31,778           $170,050           1
Controls
Missing Eligibility Determination            8,792               -           8,792          2
Missing Criminal and Sex Offender           66,661               -          66,661          3
Documentation for Staff
Indirect Costs                                   -         28,479          28,479           4
                  Totals                  $213,725        $60,257        $273,982




 NOTES:

     1. FSCM’s FFRs did not reconcile to its general ledger ($31,638 Match). The grantee also
        lacked documentation to support salaries and fringe benefits, other direct costs, stipends
        and match costs ($6,666 Federal, $140 Match). In addition, the volunteer meals were
        paid based on an arbitrary rate and not substantiated by actual costs incurred ($8,169
        Federal). Finally, the grantee did not meet its match requirements resulting in Federal
        costs being questioned ($123,437 Federal). (See Finding No. 1)

     2. FSCM lacked written evidence to demonstrate that certain volunteers in our testing
        sample were eligible to receive means-tested payments. (See Finding No. 2)

     3. FSCM did not maintain evidence that it conducted the required National Service Criminal
        History and NSOPW Checks for its employees. (See Finding No. 3)

     4. FSCM over reported the indirect costs due to the questioned costs noted during the
        audit. (See Finding No. 4)




  
                                                                                      Appendix C

                     FAMILY SERVICES OF CENTRAL MASSACHUSETTS
                           SCHEDULE OF QUESTIONED COSTS
                             AWARD NO. 07SRAMA004 (RSVP)

                                                Questioned Costs
                   Issues                      Federal      Match                        Notes
                                                Costs       Costs            Totals
    Inadequate Accounting Operations           $ 36,826    $49,815         $ 86,641         1
    Controls
    Missing Criminal and Sex Offender           194,972              -      194,972         2
    Documentation for Staff
    Indirect Costs                                    -        34,076        34,076         3
                    Totals                     $231,798       $83,891      $315,689




NOTES:

      1. FSCM’s FFRs did not reconcile to its general ledger ($44,298 Match). The grantee also
         lacked documentation to support other direct costs and match costs ($24,042 Federal,
         $5,517 Match). In addition, the volunteer travel were paid based on an arbitrary rate and
         not substantiated by actual costs incurred ($12,784 Federal). (See Finding No. 1)

      2. FSCM did not maintain evidence that it conducted the required National Service Criminal
         History and NSOPW Checks for its employees. (See Finding No. 3)

      3. FSCM over reported the indirect costs due to the questioned costs noted during the
         audit. (See Finding No. 4)




 
                                                                                 Appendix D

                   FAMILY SERVICES OF CENTRAL MASSACHUSETTS
                         SCHEDULE OF QUESTIONED COSTS
                           AWARD NO. 10SRAMA003 (RSVP)

                                          Questioned Costs
               Issues                    Federal      Match                          Notes
                                          Costs       Costs            Totals
Inadequate Accounting Operations        $ 81,094    $119,654         $200,748           1
Controls
Missing Criminal and Sex Offender         440,163              -      440,163           2
Documentation for Staff
Indirect Costs                            15,638         58,708        74,346           3
               Totals                   $536,895       $178,362      $715,257




NOTES:

    1. FSCM’s FFRs did not reconcile to its general ledger ($86,325 Match). The grantee also
       lacked documentation to support salaries and fringe benefits, other direct costs and
       match costs ($53,399 Federal, $33,169 Match). In addition, the volunteer travel were
       paid based on an arbitrary rate and not substantiated by actual costs incurred ($27,695
       Federal, $160 Match). (See Finding No. 1)

    2. FSCM did not maintain evidence that it conducted the required National Service Criminal
       History and NSOPW Checks for its employees. (See Finding No. 3)

    3. FSCM over reported the indirect costs due to the questioned costs noted during the
       audit. (See Finding No. 4)




 
                       APPENDIX E
_______________________________________________________________
      FAMILY SERVICES OF CENTRAL MASSACHUSETTS
                RESPONSE TO DRAFT REPORT
    Family
         O F      C E N T R A L
                                                                    Services
                                               M A S S A C H U S E T T S
    31 Harvard Street • Worcester, Massachusetts 01609 • (508)756-4646 • FAX(508)791-4755




Finding No. 1 – FSCM’s Financial Management Reflects Pervasive Violations of
Federal Grant Management Requirements

Finding 1.1 – Reconciliation Differences
 
While there are valid points to this finding, Family Services does not agree with the calculation of
the questioned costs for any of the grant years identified. The discrepancies noted between the
FFRs and the General Ledger, while serious and deserving of a corrective action plan, constitute a
Cash Management Finding rather than questioned costs. Our basis for this argument is that for
each of the grant periods under audit, the required matching expenses were met by the end of the
grant period. The finding and resulting costs that are being questioned deal with not allowing
costs to be applied to the Organization’s matching requirement. We feel this calculation is
incorrect. As shown in the table below, taking the total grant period expenditures (per the general
ledger) and subtracting the actual federal cash payments made results in sufficient matching
expenses for each grant period. Therefore, based on this analysis, we disagree with the questioned
costs amounting to $ 161,978 for the SCP grants and $ 130,623 for the RSVP grants.
 
 
Table 1:
                                        SCP Grants                          RSVP Grants
                               09SCAMA001       12SCAMA001          07SRAMA004       10SRAMA003


Total Grant Expenditures      $     933,863    $     280,688       $      394,887    $    870,657

Total Federal Draws                 770,802          206,557              279,071         568,597

Difference = Match            $     163,062    $     74,131        $     115,816     $    302,060
% of Total Expenses                17%             26%                  29%              35%
Required Match                     10%             10%                  30%              30%


 
Finding 1.2 – Salaries and Fringe Benefits
 
The finding and resulting costs questioned in the audit are not being disputed. A number of
timesheets were unsigned or lacked a supervisor’s approval. Further there was an employee
without a personnel file. We have taken the following steps to remedy this deficiency in our
procedures:

      Time sheets are reviewed for employee signature and authorized approval by the Fiscal
       Department.
       Any incomplete or inaccurate timesheets are returned to the appropriate department for
       correction.
      Sample timesheets are reviewed annually by an outside auditor.
      Missing personnel file was located during the audit process and was properly filed.

With these corrective actions in place, we feel the problems identified will be adequately
remedied.
 
 
Finding 1.3 – Other Direct Costs
 
We disagree with the following findings and questioned costs:

       A) For the SCP grants, we noted that FSCM reimbursed the volunteers for meals
          utilizing an arbitrary rate of $2.50 per day.

           This reimbursement rate was determined in 2008 based on the suggested rate of
           $2.00 per meal at elder dining centers (Elder Services, Senior Centers, Meals on
           Wheels) with a cost of living increase added.

           Therefore, we disagree with the recommendation to recover the $27,481 in costs for
           meal reimbursements for the SCP grants.

       B) Family Services reimbursed RSVP volunteers $1.50 for personally-owned
          vehicles, $0.60 for public bus transportation, and $2.50 for meals; all of these
          rates were arbitrary and FSCM staff could not explain their basis.

                   The rate of $1.50 per trip is a stipend consisting of a sum to offset costs of
                    gas and depreciation of personally owned vehicles. Based on current gas
                    and depreciation rates, this represents a trip of less than ½ mile.
                   $0.60 public transportation fee is based on historical costs from the
                    Worcester Regional Transit Authority. The current fee is $1.50.
                   RSVP does not reimburse for meals.

Therefore, we disagree with the recommendation to recover the $37,493 ($12,784 & $24,709) in
costs for travel reimbursements for the RSVP grants.
        C) Transactions lacking approval.

            A number of transactions selected and reported as having no evidence of approval
            were in fact disbursements requested by the particular program director. The check 
            request form was completed and signed by the program director as the requesting
            individual which is sufficient approval for the transaction. We disagree with the
            identified questioned costs in the amount of $ 17,203.

        D) Transactions lacking documentation:
           A few transactions were identified as not having sufficient documentation and
           ultimately questioned by the audit. Specifically, two transactions totaling $26,796
           that reflected accruing In-Kind expenses applicable to the matching requirement did
           have a properly completed and signed In-Kind voucher by the donating organization
           and/or individuals. This documentation was provided during the course of the audit,
           however it was not reflected in the audit report.

 
Finding 1.4 – Stipend Payments
 
We agree with the finding and are taking the following corrective actions to address the issues
identified:
              SCP staff has been retrained on correct procedure.
              Fiscal staff will periodically audit a sample selection to assure compliance.
              Materiality of the findings are questioned as only overpayments were reported.
 
 
Finding 1.5 – Match Costs
 
SCP
 
We disagree with the finding based on the analysis provided under Finding 1.1. The matching
requirements were met for each of the grant periods under audit. Further, the matching
requirement percentages stated in the finding are incorrect and unsubstantiated. We disagree
with the recommendation to recover the questioned costs totaling $ 478,767 and $123,437.
 
RSVP

We disagree with a transaction that was identified as having no supporting documentation. A
questioned cost in the amount of $ 31,942 for In-Kind advertising has an In-Kind Voucher signed
by the donating organization. This documentation was provided during the audit but not reflected
in the audit report.
 
 
Finding No. 2 – FSCM Failed to Ensure that Volunteers Met Eligibility
Requirements, Including for the Receipt of Stipends
 
SCP 
 
Family Services has since conducted the required background checks on the 27 identified
volunteers lacking evidence in their volunteer files. There were no issues identified in the
criminal history search, therefore we disagree with the recommendation to recover questioned
costs of $29,141 related to this finding. The background checks were originally completed,
however, nothing in the files indicated that such a compliance step was performed as the state
system, at that time, kept historical information. A change in the state system which eliminated
the historical information file now requires us to maintain printed compliance documentation
directly in the volunteers file.
 
We disagree with the recommendation to recover questioned costs of $15,431 related to this
finding regarding verification of volunteers’ age, completion of physical examination, income, or
that volunteers were in fact eligible to enroll in the program and receive the payments.

       Background checks on the 27 volunteers did include age verification.
       Physicals are done once a year based on the anniversary date. Subsequently, all physicals
        are up to date. The sample taken during the audit questioned volunteers not yet at their
        anniversary date.
       Income eligibility was verified by viewing the earnings/benefits statement provided by
        social security. Going forward, copies of the statement will be stored in each volunteer
        file.
       Volunteer’s written assignment plans are being completed by the respective volunteer
        stations and will be stored in each volunteer file.
       Human Resources staff will periodically audit a sample selection to assure compliance.
 
RSVP
 
 We agree with the finding and are taking the following corrective action to address the issues
identified:

       RSVP has implemented a checklist to be copied into each volunteers file to assure that
        the necessary documents have been obtained which includes age verification, residing in
        or near the community served, a completed CORI check and a signed acknowledgment
        agreeing to comply with program rules.
       Human resources staff will periodically audit a sample selection to assure compliance.
 
Finding No. 3 – Required Background Checks Were Not Conducted or Documented
for FSCM Staff

We disagree with the recommendation to recover $906,533 in questioned costs for the grants. All
the staff identified subsequently had a criminal background check completed without any
identified issues. Family Services has rectified the lack of required documentation in employee
files and will work diligently to insure that every required procedure is properly documented in
the employee files going forward.

Finding No. 4 – Disallowance of the Direct Costs Questioned in this Audit Will
Render Certain Indirect Costs Unallowable
 
With the disagreements noted above, we disagree with the amount of indirect questioned costs
identified in the amount of $241, 282.
 
Finding No. 5 – FSCM Did Not Adequately Monitor Volunteer Stations
 
We disagree with the finding regarding adequately monitoring volunteer stations.
 
SCP
 
Regulations require signed MOU’s to be renegotiated every three years. Although the newest
MOU’s were in the review process during the time of the audit, the Senior Companion Program
still met the three year requirement for signed MOU’s on file based on those from 2012.

Although the regulations do not stipulate that there needs to be specific documentation regarding
station visits, SCP has developed a formal process for station monitoring. The SCP staff is in
constant contact with the volunteer stations via the telephone, email, and scheduled station visits.
New forms are in place to provide consistent documentation of visits and communication with the
stations and maintained in files specific to each station.

RSVP

Regulations require signed MOU’s to be renegotiated every three years. RSVP’s MOUs were
current through the end of FY 2013. Every MOU was up for negotiation during the period of our
new grant which began 4/1/13. Because the FY ’14 grant was among the first to be awarded
under re-competition and new program guidelines, each MOU required a station visit to discuss
new requirements and guidelines as well as specific work plans affecting the station under the
grant. This process is ongoing.

The regulations do not stipulate that there needs to be specific documentation regarding station
visits. Rather than being situation-responsive, RSVP has been proactive about contacting
volunteer stations via email, the telephone, as well as site visits. To document each encounter
with a station, notes are now entered in the Volunteer data collection program known as
Volunteer Reporter.

Finding No. 6 – Federal Financial Reports Were Not Submitted Timely

We agree with the finding and are taking the following corrective actions to address the issues
identified:

       Family Services realizes the importance of submitting the FFR’s in a timely manner.
        Family Services is implementing internal controls to assure that all expenditures recorded
        on the FFR’s are reported to the Corporation within the required due dates.
       Monthly reconciliations, general ledger detail reports, copies of the FFR submission and
        the FFR submission confirmations are maintained in a file dedicated to each program –
        RSVP and SCP respectively and will be audited periodically by the Executive Director.
Finding No. 7 – FSCM’s Record Retention Policy Did Not Meet Grant
Requirements

We agree with the finding and are taking the following corrective actions to address the issues
identified:

       It is the policy of Family Services to retain records as required by law. Family Services
        maintains that it is best practice to keep records for 5-7 years. Our Accounting Manual
        has been updated to reflect the new retention policy of Family Services as follows:

             Bank Statements                                              7 years
             Correspondence: General                                      5 years
             General ledgers / year end trial balance                     7 years
             Invoices (to customers, from vendors)                        7 years
             Time sheets / cards / slips                                  7 years




Submitted by;




                                  November 15, 2013
________________

Stephen M. Pitcher
Interim Executive Director
Family Services of Central Massachusetts
                       APPENDIX F
_______________________________________________________________
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                RESPONSE TO DRAFT REPORT
                                NATIONAL&
                                COMMUNITY
                                SERVICEttn:

To:            St~nf~~nspector General for Audit

From:          Rocco Ga~: Deputy CFO for Grants Management and Director, Field
               Financial Management Center

Cc:            David Rebich, CFO
               Rocco Gaudio, Deputy CFO for Grants and Director FFMC
               Valerie Green, General Counsel
               Doug Hilton, Director of Office of Accountability & Oversight
               Claire Moreno, Senior Grants Officer for Policy & Audit

Date:          November 15, 2013

Subject:       Response to OIG Draft Report on the Audit of Corporation
               for National and Community Service Grants Awarded to
               Family Services of Central Massachusetts


Thank you for the opportunity to review the OIG draft report on the Corporation's grants
awarded to Family Services of Central Massachusetts (FSCM). On November 14, 2013,
we received a copy of the grantee's response to the draft audit. CNCS will respond to all
findings and recommendations in our management decision when the audit working
papers are provided and the final audit is issued and will work with the grantee to develop
any necessary corrective actions.
